                                                                 Issue Date
                                                                       December 18, 2007
                                                                 Audit Report Number
                                                                          2008-LA-1003




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
              Development, 9DD



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: Homes for Life Foundation, Los Angeles, California, Did Not Properly
           Administer Its Supportive Housing Program Grants


                                   HIGHLIGHTS

 What We Audited and Why

      We audited Homes for Life Foundation (Foundation) as a result of on-site audit work
      performed as part of a separate audit of the Los Angeles Homeless Services Authority’s
      (Authority) administration of Supportive Housing Program funds. Our audit objective
      was to determine whether the Foundation applied and tracked its U.S. Department of
      Housing and Urban Development (HUD) Supportive Housing Program cash match in
      accordance with applicable laws, regulations, and requirements.

 What We Found


      The Foundation did not administer its Supportive Housing Program grants in compliance
      with HUD requirements. Specifically, it could not adequately support that it met the
      statutory 25 percent cash match requirement of $389,291 for all 12 grants reviewed.
      Further, it inappropriately charged $5,487 in duplicate operational costs that were
      charged to both HUD and the Los Angeles County Department of Mental Health and
      $107,365 in unsupported duplicate salaries. We attribute these deficiencies to the
      Foundation’s inadequate understanding of the cash match record-keeping rules and
      regulations, its inadequate financial management system, its failure to implement a cost
         allocation plan that met HUD requirements to distribute shared costs among its
         multifunded projects, and the Authority’s failure to monitor the Foundation’s cash match
         operations.

    What We Recommend


         We recommend that HUD require the Foundation and/or the Authority 1 to (1) provide
         adequate supporting documentation to substantiate that the cash match of $389,291 was
         met or repay more than $2 million in grant funds expended from nonfederal funds, (2)
         implement a financial management system that adequately identifies the source and
         application of all cash match funds for federally sponsored activities, (3) repay $5,487 in
         duplicate costs from nonfederal funds, (4) provide support to substantiate that $107,365
         in salaries was not double charged to HUD’s Supportive Housing Program and the
         Department of Mental Health’s Independent Living Program or repay it from nonfederal
         funds, and (5) establish and implement a cost allocation plan that meets HUD
         requirements by allocating program expenditures for its multifunded projects equitably.

         For each recommendation without a management decision, please respond and provide
         status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
         with any copies of any correspondence or directives issued because of the audit.

    Auditee’s Response


         We provided our discussion draft report to the Foundation and the Authority on
         November 7, 2007, and held an exit conference on November 20, 2007. The Foundation
         and the Authority provided their written comments on November 30, 2007. The
         Foundation and the Authority disagreed with our report findings.

         The complete text of the responses from the Foundation and the Authority, along with
         our evaluation of those responses, can be found in appendix B of this report. Due to the
         voluminous nature of the Foundation’s attachments in its response, we will make them
         available upon request.




1
  HUD awarded Supportive Housing Program funds to the Authority (10 grants), which it then passed through to the
Foundation to carry out the grant activities. The Authority was ultimately responsible for compliance with the grant
agreements and other HUD requirements. The remaining four grants were direct grants to the Foundation, so it was
responsible for compliance with the four grant agreements with HUD.


                                                         2
                             TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
   Finding 1: The Foundation Could Not Adequately Support That It Provided         6
              $389,291 in Required Matching Funds
   Finding 2: The Foundation Inappropriately Charged $112,852 in Duplicate Costs   12

Scope and Methodology                                                              15

Internal Controls                                                                  16

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use             17
   B.   Auditee Comments and OIG’s Evaluation                                      18
   C.   Schedule of Required, Met, and Unmet Cash Match                            26
   D.   Schedule of Unsupported and Ineligible Amounts                             27
   E.   Criteria                                                                   28




                                              3
                     BACKGROUND AND OBJECTIVES

The Supportive Housing Program is authorized under Title IV of the McKinney-Vento Homeless
Assistance Act (United States Code 11381-11389). The program is designed to promote the
development of supportive housing and services, including innovative approaches to assist
homeless persons in the transition from homelessness, and to promote the provision of
supportive housing for homeless persons to enable them to live as independently as possible.
Eligible activities include transitional housing, permanent housing for homeless persons with
disabilities, innovative housing that meets the intermediate and long-term needs of homeless
persons, and supportive services for homeless persons not provided in conjunction with
supportive housing.

The Homes for Life Foundation (Foundation) was formed as a housing corporation in 1986 and
as a 501(c)(3) tax-exempt organization in 1987. The primary purpose of the organization is to
establish a network of permanent, affordable, service-enriched housing for individuals who
suffer from mental disabilities and those who are homeless or are at imminent risk of becoming
homeless.

The Foundation received funding from the U.S. Department of Health and Human Services,
passed through the Los Angeles County Department of Mental Health, and from the U.S.
Department of Housing and Urban Development (HUD). The Foundation received direct grants
from HUD, as well as grants that were awarded to the Los Angeles Homeless Services Authority
(Authority), which were then passed through to the Foundation to carry out the grant activities.
Since July 2001, the Foundation has been awarded 14 Supportive Housing Program grants
totaling a little more than $4 million, of which four grants, totaling $701,328, are currently
active. We reviewed 12 of the 14 grants, of which eight grants, totaling $1.57 million, were
passed through the Authority and four grants, totaling $1.3 million, were received directly from
HUD. The 14 grants are shown below.

                 Contract
                                                     Project                     Grant amount
                 number
                                    Passed through the Authority
   1           CA16B400051                        Athena Homes                     $250,000
   2           CA16B500040                        Athena Homes                     $250,000
   3           CA16B300010                      Denker Consolidated                $300,205
   4           CA16B500004                      Denker Consolidated                $150,102
   5           CA16B500005                     Garden Villas Homes                 $128,963
   6           CA16B400008                    Harbor Gateway Homes                 $135,413
   7           CA16B500002                    Harbor Gateway Homes                 $135,413
   8           CA16B300114                   HFL Van Nuys Apartments               $228,179
                                     Subtotal passed-through grants reviewed      $1,578,275




                                                 4
     9           CA16B800027                             Birch Grove 2                  $643,552
    10           CA16B900050                         Elm Street Homes 3                 $490,041
                                        Subtotal passed-through grants not reviewed    $1,133,593
                                            Subtotal all passed-through grants         $2,711,868
                                                 Direct grants
    11           CA16B960017                         Cedar Street Homes                 $743,737
    12           CA16B500035                         Cedar Street Homes                 $337,590
    13           CA16B300004                            Harvest House                   $146,091
    14           CA16B500009                            Harvest House                    $73,047
                                                   Subtotal direct grants              $1,300,465
                                                             Total                     $4,012,333

We initiated our audit based on results obtained during a separate audit of the Authority 4 and its
administration of Supportive Housing Program grant funds. During the audit of the Authority,
we reviewed the Foundation’s cost eligibility and cash match administration. Our limited review
determined that the Foundation generally followed HUD rules and regulations with regard to
cost eligibility. However, we determined that a limited scope audit focused on cash match was
warranted based on potential deficiencies identified.

In July 2007, the County of Los Angeles Department of Auditor-Controller conducted a
compliance review of the Foundation’s Department of Mental Health Medi-Cal billings. The
county’s report cited that the Foundation “(1) did not have a detailed cost allocation plan to
allocate overhead and other shared costs; and (2) reported program expenditures based on
maximum contract amounts and not actual expenditures. As a result, the Foundation cannot
identify the expenditures attributed to specific programs and may not have appropriately billed
its expenditures to Department of Mental Health’s program.” The Foundation generally agreed
with the results of the review and provided a written response stating that it was in the market for
new accounting software, which it intended to implement by July 2008.

Our audit objective was to determine whether the Foundation applied and tracked its HUD
Supportive Housing Program cash match in accordance with applicable laws, regulations, and
requirements.




2
  This grant was not reviewed since it did not require match funds.
3
  This grant was not reviewed since it did not require match funds.
4
  Audit report 2007-LA-1013, Los Angeles Homeless Services Authority (June 8, 2007).


                                                      5
                                       RESULTS OF AUDIT

Finding 1: The Foundation Could Not Adequately Support That It
Provided $389,291 in Required Matching Funds
The Foundation could not adequately support that it met the statutory 25 percent cash match
requirement of $389,291 for all 12 grants reviewed. We attribute these deficiencies to the
Foundation’s inadequate understanding of cash match record-keeping rules and regulations; its
failure to implement an adequate financial management system to record and track expenditures
and its related match by fund, grant, or program; and the Authority’s failure to monitor the
Foundation’s cash match operations. As a result, it could not assure HUD or the Authority that it
maximized the effectiveness of the Supportive Housing Program’s intent.


    The Foundation Could Not
    Adequately Support That It
    Provided $389,291 in Required
    Matching Funds


         Contrary to Office of Management and Budget Circular A-133 and 24 CFR [Code of
         Federal Regulations] 85.24(b)(6), requiring that cash match be verifiable from the
         recipient’s records (see appendix E), the Foundation could not completely justify that it
         met the statutory 25 percent cash match requirement of $389,291 for all 12 Supportive
         Housing Program grants. While the Foundation’s records showed that there were sources
         of funds available to be used as cash match, its accounting system lacked the capability of
         recording transactions by program or grant; thus, the expenditures for all of its programs
         and activities were commingled and not identifiable by the source of funds.
         Consequently, it was impossible to identify the source and application of the cash match.
         In many instances, the Foundation claimed Department of Mental Health funds as the
         source of cash match, but program billings were not prepared to substantiate the
         expenditures because they were not required by the Department of Mental Health.
         However, under HUD rules and regulations, it was necessary to prepare those billings to
         show that cash match requirements were met. Details of the deficiencies for all 12 grants
         are summarized in appendix C and discussed by grant below.

         •   CA16B400051 (Athena Homes) - Between December 2005 and November 2006,
             $209,348 in cash match was reported as having been provided for this grant;
             however, $24,590 in match related to the operations budget under the technical
             submission was met, based on our review of the Independent Living Program billings
             and checks. 5


5
  A total of $51,958 in eligible operations match was available, which is $27,368 in excess of the required $24,590
in operations match.


                                                         6
             The required cash match for supportive services of $34,345 was not met and was,
             therefore, unsupported. We could not fully verify that the custodial care salaries
             charged and paid for under the Independent Living Program were related to salaries
             eligible under the grant because, according to the accountant/asset manager, the
             amounts requested for reimbursement were intended to capture 1/12 of the maximum
             contract amount. The timesheets and pay stubs of its employees, which were attached
             to the monthly billings, could not be tied to the salary reimbursement amount, so we
             could not be assured that those funds went to pay for eligible salaries.

         •   CA16B500040 (Athena Homes) - Between December 2006 and June 2007,
             $120,866 in cash match was reported as having been provided for this grant;
             however, $14,213 in cash match related to the operations budget under the technical
             submission was met, based on our review of the Independent Living Program billings
             and checks. 6

             As with the first Athena Homes grant, the accountant/asset manager drew down 1/12th
             of the maximum contract in the amounts requested from the Independent Living
             Program for custodial care salaries; therefore, we could not be assured that those
             funds went to pay for eligible salaries as approved by the technical submission. The
             required cash match for supportive services of $20,120 was not met and was,
             therefore, unsupported.

         •   CA16B300010 and CA16B500004 (Denker Consolidated) - Between November
             2004 and June 2007, $496,827 ($332,182 and $164,645, respectively) in cash match
             was reported as having been provided for these grants; however, the $94,490 in
             required cash match ($71,347 and $23,143, respectively) was not met, based on our
             review of the income statement generated from the financial management system.
             The Foundation claimed to have allocated its costs and cash match by tenant rents;
             however, this method did not ensure that the revenues were allocated to eligible
             expenses. We were unable to validate whether the $911,488 in rents collected
             ($691,302 and $220,186, respectively) was used for the required cash match.
             Moreover, the Foundation did not provide any additional documentation to
             substantiate that the rents collected were used for eligible cash match items.
             Therefore, the required cash match amount of $94,490 ($71,347 and $23,143,
             respectively) was unsupported.

         •   CA16B500005 (Garden Villas Homes), CA16B400008 and CA16B500002
             (Harbor Gateways), and CA16B300114 (Van Nuys Apartments) - The source of
             cash match for these grants was Department of Mental Health Medi-Cal funds, which
             were also used for other purposes and were ineligible under the Supportive Housing
             Program. The funds appeared as “HFLF” on the lump sum checks received by the
             Foundation and were accounted for in the general ledger under the “administrative”
             cost center and commingled with Department of Mental Health funds for other


6
  A total of $27,391 in eligible operations match was available, which is $13,178 in excess of the required $14,213
in operations match.


                                                         7
    nonrelated projects. The commingled funds could no longer be tracked. Therefore, it
    is unclear whether they were used for eligible or ineligible items. Consequently, we
    could not determine whether these funds were used as cash match and were eligible.
    Therefore, a total of $104,678 in required match for these four grants was
    unsupported. We noted that this deficiency was also identified in the county’s
    compliance review (discussed in the background section of this report), which
    indicated that the Department of Mental Health may not have been billed
    appropriately. A summary of each of these grants is shown in the chart below.

                                                                   Reported but
                                                                                   Unmet
       Grant         Project name            Time period            unverified
                                                                                   match
                                                                      match
    CA16B500005    Garden Villa Homes  October 2006 - June 2007   $      22,178   $ 23,578
    CA16B400008     Harbor Gateways October 2005 - September 2006 $     124,721   $ 32,141
    CA16B500002     Harbor Gateways   October 2006 - June 2007    $      89,010   $ 23,866
    CA16B300114   Van Nuys Apartments January 2006 to June 2007 $        33,839   $ 25,093
                                                Total             $     269,748   $ 104,678

•   CA16B960017 and CA16B500035 (Cedar Street Homes) and CA16B300004 and
    CA16B500009 (Harvest House) - The source of cash match for the Cedar Homes
    grants was the Department of Mental Health Supportive Services Residential Program
    and tenant rents, while the source of cash match for Harvest House was the
    Department of Mental Health Medi-Cal and tenant rents.

    Based on the Supportive Services Residential Program billings, $374,091 was
    requested and was eligible as match for the operations budget for grant
    CA16B960017. According to a Department of Mental Health representative, the
    $374,091 was provided through a series of cash flow advances, comprised of lump
    sum payments that paid for various Department of Mental Health programs including
    the Supportive Services Residential Program. However, neither the Department of
    Mental Health representative nor the Foundation’s accountant/asset manager could
    provide a detailed summary of the cash flow advances to verify that the amount was
    indeed paid to the Foundation. There was no correlation between the $374,091 and
    the cash flow advance checks, evidencing receipt of payment. For grant
    CA16B500035, we were able to validate that $56,344 in match related to the
    operations budget under the technical submission was met, based on our review of the
    Supportive Services Residential Program billings and checks received from the
    Department of Mental Health.

    The Foundation claimed to have allocated its costs and cash match by tenant rents;
    however, this method does not ensure that the revenues were allocated to eligible
    expenses. We were unable to verify that a total of $402,501 in tenant rental income
    was met and used for the required match, based on our review of the income
    statement generated from the financial management system for the four grants
    reviewed. We were also unable to verify that $74,250 in Department of Mental
    Health Medi-Cal funds was used for cash match. Moreover, the Foundation did not



                                              8
                 provide any additional documentation to substantiate that the rents collected were
                 used for eligible cash match. As a result, $135,658 in required cash match for the
                 Cedar Street Homes and Harvest House grants were unsupported. A summary of
                 each of these grants is shown in the chart below.

                                    Department of Mental               Department   Reported
                                     Health Supportive      Tenant      of Mental      but        Required     Unmet
   Grant          Project name
                                    Services Residential     rents       Health     unverified     match       match
                                          Program                       Medi-Cal      match
CA16B960017    Cedar Street Homes   $           374,091    $ 163,506   $       -    $ 616,405     $ 71,524    $ 71,524
CA16B500035    Cedar Street Homes   $            56,344    $ 75,812    $       -    $ 802,796     $ 74,129    $ 17,785
CA16B300004      Harvest House      $                -     $ 136,603   $   50,250   $ 152,357     $ 34,784    $ 34,784
CA16B500009      Harvest House      $                -     $ 26,580    $   24,000   $ 63,330      $ 11,565    $ 11,565
                      Total         $           430,435    $ 402,501   $   74,250   $ 1,634,888   $ 192,002   $ 135,658



           The Foundation’s Financial
           Management System Was
           Inadequate

              During our audit scope, the Foundation reportedly provided $2.7 million in cash match
              funds and certified that it had been provided. Although the Foundation had multiple
              sources of funds from which it reportedly provided the required grant cash match, we
              were unable to validate its sources primarily due to its inadequate financial management
              system. The financial management system was out of date and could not track
              expenditures and the Foundation’s related match by fund, grant, or program. The
              Foundation fully acknowledged the software’s shortcomings and had supplemented the
              system with a multitude of Excel spreadsheets, which purportedly supported that match
              for eligible expenses was available; however, there was no direct link between the Excel
              spreadsheets and the financial management system. Because the financial management
              system did not clearly identify what portion of expenditures was paid for by match funds,
              we unsuccessfully attempted to validate the match reported on the Excel spreadsheets
              provided. We then reviewed other supporting documentation, such as Department of
              Mental Health and tenant rent checks as well as the Department of Mental Health’s
              Independent Living and Supportive Services Residential Programs billings, as an
              alternative procedure in an attempt to validate the cash match. However, as discussed
              above, in all 12 grants, all or a portion of the cash match was unsupported based on our
              review.

              According to the Foundation’s certified public accountant, she identified the financial
              management system’s limitations several years ago and had informed the Foundation of
              the issue, yet it claimed to have only been made aware of its system’s limitations when
              the County of Los Angeles Department of Auditor-Controller conducted an audit last
              year. The Foundation also attributed its predicament to the Authority’s not monitoring
              and notifying it of any operational noncompliance or shortcomings. The Foundation



                                                            9
         apparently disregarded HUD requirements and neglected to make a concerted effort to
         follow those requirements until it was forced to take action as a result of the Auditor-
         Controller review. Had it taken a more proactive approach in documenting its billings to
         the Department of Mental Health and addressed the financial management system’s
         weakness, its lack of cash match support may not have been an issue.

    Conclusion


         We could not validate whether the Foundation had $2.4 million in reported match to meet
         the $389,291 in required cash match for all 12 HUD Supportive Housing Program grants.
         We attribute the Foundation’s cash match deficiencies to its inadequate understanding of
         cash match record-keeping rules and regulations, which require that match be verifiable
         from the recipients’ records; its failure to implement an adequate financial management
         system that tracks expenditures and its related cash match according to fund, grant, or
         program; and the Authority’s failure to monitor the Foundation’s cash match operations.
         A prior audit 7 of the Authority’s Supportive Housing Program grant administration
         concluded that the Authority did not perform on-site fiscal monitoring of its project
         sponsors as required. Consequently, neither HUD nor the Authority was assured that the
         Foundation maximized the effectiveness of the Supportive Housing Program’s intent to
         house and support the homeless.

    Recommendations

         We recommend that the Director of the Los Angeles Office of Community Planning and
         Development

         1A.     Require the Foundation to provide adequate supporting documentation to
                 substantiate that it has met the match requirement of $253,633 or require the
                 Authority to repay $998,492 8 in passed-through grant funds expended from
                 nonfederal funds. In addition, the Foundation should identify and support any
                 match related to grant funds expended after our audit cutoff date, or the Authority
                 should repay these grant funds.

         1B.     Require the Foundation to provide adequate supporting documentation to
                 substantiate that it has met the match requirement of $135,658 or repay
                 $1,013,280 9 in direct grants expended from nonfederal funds. In addition, the


7
  Audit report 2007-LA-1013, Los Angeles Homeless Services Authority (June 8, 2007).
8
  We calculated the $998,492 as a percentage of total Supportive Housing Program funds disbursed. For grants
CA16B400051 and CA16B500040, we deducted the duplicate costs of $74,919 ($5,487 related to operational costs
and $69,432 related to salaries) and $37,933 (related to salaries) before applying the percentage, respectively.
Details of this amount can be found in appendix D.
9
  We calculated the $1,013,280 as a percentage of total Supportive Housing Program funds disbursed. Details of
this amount can be found in appendix D.


                                                       10
      foundation should identify and support any match related to grant funds expended
      after our audit cutoff date or repay these grant funds.

1C.   Require the Foundation to implement a financial management system that
      adequately identifies the source and application of all cash match funds for
      federally sponsored activities and provides for accurate, current, and complete
      disclosure of the cash match activities of each federally sponsored project or
      program on the individual HUD grant it is awarded.

1D.   Require the Foundation to update and revise its policies and procedures to include
      detailed cash match requirement guidance. Specifically, it should stress the
      necessity for adequate record keeping and preparing of supporting documentation.

1E.   Suspend the release of funds from the Foundation’s current authorized grants until
      an adequate financial management system has been implemented and supporting
      documentation for the unsupported match has been provided and defer awarding
      the Foundation additional grants until the issue has been resolved.

1F.   Require the Authority to monitor the Foundation’s compliance with its cash
      match requirements.




                                      11
Finding 2: The Foundation Inappropriately Charged $112,852 in
Duplicate Costs
The Foundation inappropriately charged $5,487 in duplicate operational costs that were charged
to both HUD and Department of Mental Health and $107,365 in unsupported duplicate salaries.
We attribute these deficiencies to cost allocation plans that did not meet HUD requirements and
the Foundation’s emphasis on gaining reimbursement of maximum contract amounts from its
various grant sources. As a result, HUD could not be assured that grant funds were used to pay
actual and not estimated costs and that no duplication of payments existed.



 The Foundation Improperly
 Charged Identical Costs to Both
 HUD and the Department of
 Mental Health

       Contrary to Office of Management and Budget Circular A-110 (see appendix E), we
       identified that $5,487 in duplicate operational expenditures was charged to both the
       Department of Mental Health and HUD’s Supportive Housing Program Athena Homes
       grant, CA16B400051. The charges were related to transportation/van lease ($655) and
       food ($4,832). After we brought this matter to the attention of the Foundation, the
       accountant/asset manager reviewed it and agreed that the duplicate charges were made.

       We also determined that $107,365 in salaries was paid from the Supportive Housing
       Program grants, CA16B400051 ($69,432) and CA16B500040 ($37,933), and appear to
       have been paid from the Department of Mental Health Independent Living Program as
       well. According to the accountant/asset manager, salary reimbursements from the
       Independent Living Program that were derived from maximum contract amounts. For
       example, in the December 2005 Independent Living Program billing, the Foundation
       charged $7,396 for custodial care salaries; however, that amount was not based on actual
       salary costs but, rather, on 1/12 of the total budget per month or in this particular case, the
       remaining balance to be drawn for the contract year (which is illustrated in the
       accountant/asset manager’s notes shown below).




                                                 12
     Although timesheets and pay stubs were attached to the monthly billings, the salaries
     could not be traced to the support. Consequently, we could not be assured that the
     salaries paid by the Supportive Housing Program were not also paid by the Independent
     Living Program. After our preliminary meeting with the Foundation, we were provided
     with additional documentation to support that the salaries could be traced to specific
     employees, but based on what we were told during fieldwork, the additional support
     contradicted the Foundation’s previous statement. This support was apparently created
     after the fact to make it appear that duplicate charges did not occur. Had the Foundation
     implemented an appropriate cost allocation plan and not relied on drawing down
     maximum contract amounts, this duplication would not have occurred.

     We reviewed the timesheets and pay stubs that were attached to the Independent Living
     Program billings and identified the salaries that were charged to the Supportive Housing
     Program for grant CA16B400051 and its renewal, CA16B500040. The chart below
     shows a summary of salary costs that were charged to both the Supportive Housing
     Program and the Independent Living Program.

                                             Athena Homes
                    CA16B400051                                         CA16B500040
                                  Unsupported                                         Unsupported
                                     costs                                               costs
        Date                        Salaries                 Date                       Salaries
   December 2005                  $     (7,396)         December 2006                 $    (10,216)
     June 2006                    $     (5,280)          January 2007                 $    (10,077)
      July 2006                   $    (11,021)         February 2007                 $     (9,841)
    August 2006                   $    (10,589)           March 2007                  $     (7,799)
   September 2006                 $    (11,528)             Total                     $    (37,933)
    October 2006                  $     (9,580)
   November 2006                  $    (14,038)
        Total                     $    (69,432)


Conclusion


     We attribute the Foundation’s inappropriate duplicate charges to its lack of an acceptable
     cost allocation plan to equitably assign joint expenditures for its multifunded projects.


                                                  13
    Further, The Foundation did not apply reasonable drawdown procedures to ensure that
    actual and not estimated costs were repaid to the Foundation. Consequently, it failed to
    ensure that HUD grants were spent in accordance with requirements and were not
    overburdened to fund the entire cost of grant activities and that no duplication of
    payments existed.

Recommendations

    We recommend that the Director of the Los Angeles Office of Community Planning and
    Development require the Foundation to

    2A.    Repay $5,487 in duplicate costs relating to Athena Homes grant CA16B400051
           from nonfederal funds.

    2B.    Provide adequate support to substantiate that the $107,365 ($69,432 from
           CA16B400051 and $37,933 from CA16B500040) in salaries was not double
           charged to the Department of Mental Health and HUD or repay HUD from
           nonfederal funds.

    2C.    Establish and implement a cost allocation plan that meets HUD requirements by
           allocating expenditures for its multifunded projects equitably.

    2D.    Revise, update, and implement detailed drawdown policies and procedures to
           ensure that actual and not estimated costs are reimbursed from authorized grant
           funds.




                                            14
                        SCOPE AND METHODOLOGY

We performed our audit work at the Foundation, located in Los Angeles, California, from June
through October 2007. Our audit generally covered the period November 2004 through July
2007. We expanded our scope when necessary.

To accomplish our audit objectives, we

   •   Reviewed applicable HUD regulations, Code of Federal Regulations, and Office of
       Management and Budget circulars.

   •   Obtained an understanding of the Foundation’s procedures, including its controls to
       ensure that it properly administered its Supportive Housing Program.

   •   Reviewed HUD’s Los Angeles Office of Community Planning and Development grant
       files associated with Supportive Housing Program grants received by the Foundation.

   •   Reviewed 12 of the 14 grants awarded to the Foundation. We reviewed the Foundation’s
       12 Supportive Housing Program active and recently expired grants, including the grant
       agreements, technical submissions, annual progress reports, monthly invoice billings
       (cash match tracking sheets and related general ledger expenses), and bank account. The
       remaining two were not reviewed because there was no cash match requirement for these
       two grants.

   •   Queried the Line of Credit Control System to determine the authorized, drawn, and
       balance of grant award amounts.

   •   Interviewed the Foundation’s accountant/asset manager to acquire an understanding of its
       cash match procedures, practices, tracking, and application.

   •   Reviewed the Foundation’s December 31, 2004 and 2005, audited financial statements.

   •   Reviewed the contract and amendments related to the contract between the Foundation
       and the County of Los Angeles Department of Mental Health.

   •   Reviewed the compliance report prepared by the County of Los Angeles Mental Health
       and the Foundation’s response to the review.

   •   Reviewed the County of Los Angeles Department of Mental Health billings for the
       Independent Living Program and Supportive Services Residential Program.

   We performed our review in accordance with generally accepted government auditing
   standards.




                                              15
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

              •   Policies and procedures that management has implemented to ensure accurate,
                  current, and complete disclosure of financial results.
              •   Policies and procedures that management has implemented to reasonably
                  ensure that its Supportive Housing Program grants are carried out in
                  accordance with applicable laws and regulations.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following item is a significant weakness:

              •   The Foundation did not have sufficient controls in place to ensure that its
                  Supportive Housing Program grants were carried out in accordance with
                  applicable laws and regulations (findings 1 and 2).




                                               16
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

     Recommendation number              Ineligible 1/             Unsupported 2/
             1A                                                     $998,492
             1B                                                    $1,013,280
             2A                            $5,487
             2B                                                      $107,365
            Totals                         $5,487                   $2,119,137


  1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations. In this situation, the Foundation charged $5,487 in duplicate
     operational costs that were charged to both HUD and the Department of Mental Health.

  2/ Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures. We calculated the $2,011,772 ($998,492 and
     $1,013,280) as a percentage of total Supportive Housing Program funds disbursed. For
     grant CA16B400051, we deducted the ineligible amount of $5,487 and unsupported
     duplicative amount of $69,532 from the total disbursed, before arriving at the
     unsupported amount. Similarly, for grant CA16B500040, we deducted the unsupported
     duplicative amount of $37,933 from the total disbursed, before arriving at the
     unsupported amount. The total unsupported duplicative amount is $107,365 ($69,532
     and $37,933). Details of the breakdown can be found in appendix D.




                                             17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         18
Comment 3




            19
Comment 4



Comment 5




Comment 6




            20
Comment 7




Comment 8




Comment 9




Comment 10




Comment 11




             21
22
                            OIG Evaluation of Auditee Comments

Comment 1 -   We disagree. The documentation that was provided to us was inadequate to
              demonstrate that funds were applied properly to meet grant requirements. The
              supplemental excel spreadsheets are not reliable given that the Foundation re-created
              them as a result of learning of our audit findings and that spreadsheets must be
              supported by other documentation such as Department of Mental Health billings and
              checks. Based on our interview with the accountant or asset manager, we ascertained
              that billings were not prepared for any other Department of Mental Health programs
              except for the Independent Living Program, Supportive Services Residential Program,
              and County General Funds Realignment Program. This indicates that Department of
              Mental Health Medi-Cal, County General Funds, and other related monies were not
              properly documented and is therefore not supported. In the Foundation's response to our
              report, it states that "DMH has not required Homes for Life Foundation to include
              information in billings." Without such billings, we cannot determine the validity of those
              excel spreadsheets. The Foundation did not provide other reliable, relevant information
              to corroborate that the excel spreadsheet information is accurate.

Comment 2 -   The Foundation provided us with copies of excel spreadsheets that are contrary to the
              information we gathered during our audit fieldwork and were created after it was informed
              of our audit findings. The Foundation did not provide adequate documentation to support
              that it did not charge $107,365 in duplicate staff salaries. The main intent of the
              accountant or asset manager when he prepares monthly Department of Mental Health
              billings is to draw 1/12th of the maximum contract amount (i.e. his support is with
              estimated and not actual costs). The billings would show, for example, that $16,500 was
              requested for the month of September, however, a breakdown of how the $16,500 was
              derived was not provided. As support for the Department of Mental Health billings, he
              simply attaches the timesheets and pay stubs of employees without an allocation of how
              much or of which employee's pay he has drawn to represent the $16,500. Note that
              some of these identical timesheets and pay stubs for the same time period are also
              attached to the HUD Supportive Housing Program billings, except in those billings, he
              prepares a detailed allocation of the amount to be drawn. When we asked him how he
              derived the $16,500, we were told that the numbers were "plugged". After we informed
              the Foundation of our audit findings, the Foundation prepared excel spreadsheets that
              show an allocation of salary but the salaries of employees whose pay was charged to
              HUD were not included. The Foundation could not provide us with spreadsheets to show
              the allocation when we requested it during our audit fieldwork. The Foundation could not
              provide supporting documentation for the numbers on the excel spreadsheets that were
              provided with their response to this report.

Comment 3 -   The Foundation was provided with ample time to investigate and gather all the
              information necessary to respond to the findings. We provided the Foundation copies of
              the finding outlines on October 12, 2007 and conducted a preliminary meeting to discuss
              the outlines and any concerns it had with respect to our conclusions. The outlines
              generally reflected the conclusions made in the draft audit report, which was provided on
              November 7, 2007, giving the auditee almost a month to gather all the information
              necessary to disclaim the findings. Moreover, during the exit conference, we provided
              the auditee and the Authority with an extension to provide their written comments. We
              have consistently applied this policy with all of our auditees. The Foundation is welcome
              to provide any additional documentation to HUD during the audit resolution phase to
              resolve its grievances.




                                                 23
Comment 4 -    We agree that the Foundation's "accounting software does not provide flexibility to allow
               certain record keeping through its general ledger." However, as evidenced by the
               Foundation's written response, which was provided to us after our audit fieldwork, the
               Foundation has not fully documented it has met its cash match as it should during the
               term of the HUD Supportive Housing Program grants, many of which had expired at the
               completion of the audit. Had the Foundation fully documented and had knowledge of its
               record keeping responsibilities, the excel spreadsheets and other reliable support (such
               as Department of Mental Health billings for Medi-Cal) for such spreadsheets would have
               existed during the audit, which was not the case. While excel spreadsheets are an
               acceptable form of documentation, they cannot stand alone and must be supported by
               source documents.

Comment 5 -    We agree that certain information was not reviewed by us during our audit; however, it
               was not because we were unclear with our request as the Foundation did not have such
               documentation during our audit. It was not until after we informed the Foundation of our
               findings that it requested information on what documentation it may re-create to prove it
               had the match. We were prudent and diligent in requesting cash match related
               documentation and have spent a substantial amount of time piecing together what
               documentation it had in order to show that cash match was met. However, we will not
               violate accounting standards to aid the auditee by allowing them to re-create information
               that simply is not supportable. We asked for very specific information numerous times
               and none was provided.

Comment 6 -    A majority of the exhibits provided by the auditee contained excel spreadsheets that we
               could not validate or verify with other documentation. We cannot in good conscience
               state that cash match was met, when the additional documentation does not provide
               evidence of this. See comment #2 above regarding our position on finding #2. The
               Foundation is welcome to provide any additional documentation to HUD during the audit
               resolution phase to resolve its disagreements with our report.

Comment 7 -    We agree that supplemental spreadsheets are an acceptable form of documentation;
               however, they are not source documentation and are not necessarily reliable if they
               cannot be supported by other source documentation like checks, Department of Mental
               Health billings, Supportive Housing Program billings, etc..

Comment 8 -    As stated by the Foundation, the purpose of a HUD or Authority-sponsored training is to
               provide grant administration information to multiple grantees. The purpose of those
               trainings is not to audit or perform a review of the Foundation. Due to the lack of
               monitoring conducted by HUD or the Authority, neither agency found the Foundation's
               accounting system as deficient. Given that neither agency has ever gotten a chance to
               review the Foundation's accounting system it would not be reasonable for them to
               comment on the system during training. Prior to the current CFO's arrival at the
               Authority, the extent of the Authority's monitoring consisted of desk reviews.

Comment 9 -    We agree that the Foundation has a cost allocation plan; however, it is not being
               implemented properly as we identified duplicate costs during the course of the audit,
               which the Foundation agreed to (see auditee's response, comment 4). We agree to
               change the verbiage in our report to state that the Foundation lacked an acceptable cost
               allocation plan that met HUD standards.

Comment 10 - Our audit of the Foundation's cash match concluded that matching requirements were
             unmet for all 12 grants in our review. The additional documentation provided with the
             auditee's comments also are not enough to show the actual application of the match.



                                                  24
              What was provided to us were excel spreadsheets and those are not source documents
              that are always reliable.

Comment 11-   Based on the information we were provided, we agree to change three items of the
              report:

              o   Remove the sentence signifying that the Foundation is implementing its new software
                  in January 2008;
              o   Remove any references to the word "plugged." However, this does not excuse the
                  fact that maximum contract amounts are the accountant or asset manager's basis for
                  draw downs; and
              o   Amend the verbiage regarding the Foundation's lack of a cost allocation plan to state
                  that the Foundation lacked an acceptable cost allocation plan that met HUD
                  standards.

              As for the section regarding the statement made by the Foundation's certified public
              accountant, we will not make the changes as requested since we did not print
              unsupported information. We were informed that she was the Foundation's auditor for
              the past five to six years and that she was aware of the accounting system deficiency;
              however, because she took alternative steps to satisfy her, she issued a report with an
              unqualified opinion and without a finding. We were informed she was aware of the
              accounting software's shortcomings several years ago, but did not feel it was an issue
              given the size and amount of grants it had received and that she had discussed this with
              management. The point we want to stress in including the statement in our report is that
              the Foundation was made aware of the accounting software issue before the County of
              Los Angeles Department of Auditor-Controller compliance review, but did not act
              promptly to rectify the problem.




                                                 25
Appendix C

                         SCHEDULE OF REQUIRED, MET, AND UNMET CASH MATCH


                                                                                 Homeless
                                                   Supportive                                                                   Verified
                                                                Operations     Management          Total                                                            Percentage
                                                    services                                                     Reported      operations-    Met         Unmet
      Grant number                 Project                       required       Information       match                                                              of unmet
                                                    required                                                      match          related     match        match
                                                                  match           System         required                                                             match
                                                     match                                                                      match 10
                                                                              required match

                                                                Passed through the Authority to the Foundation
 1    CA16B400051              Athena Homes        $   34,345   $ 24,590       $            -    $ 58,935        $ 209,348      $ 51,958     $24,590     $ 34,345      58
 2    CA16B500040              Athena Homes        $   20,120   $ 14,213       $            -    $ 34,333        $ 120,866      $ 27,391     $14,213     $ 20,120      59
 3    CA16B300010            Denker Consolidated   $   43,090   $ 28,257       $            -    $ 71,347        $ 332,182      $      -     $       -   $ 71,347      100
 4    CA16B500004            Denker Consolidated   $   13,769   $   9,374      $            -    $ 23,143        $ 164,645      $      -     $       -   $ 23,143      100
 5    CA16B500005            Garden Villas Homes   $   23,578   $        -     $            -    $ 23,578        $ 22,178       $      -     $       -   $ 23,578      100
 6    CA16B400008             Harbor Gateways      $   32,141   $        -     $            -    $ 32,141        $ 124,721      $      -     $       -   $ 32,141      100
 7    CA16B500002             Harbor Gateways      $   23,866   $        -     $            -    $ 23,866        $ 89,010       $      -     $       -   $ 23,866      100
 8    CA16B300114        Van Nuys Apartments       $   16,488   $   8,438      $          167    $ 25,093        $ 33,839       $      -     $       -   $ 25,093      100
                 Subtotal                          $ 207,397    $ 84,872       $          167    $292,436        $ 1,096,789    $ 79,349     $38,803     $253,633      87
                                                                       Direct grants to the Foundation
 9    CA16B960017            Cedar Street Homes    $   17,785   $ 53,739       $            -    $ 71,524        $ 616,405      $       -    $       -   $ 71,524      100
10    CA16B500035            Cedar Street Homes    $   17,785   $ 56,344       $            -    $ 74,129        $ 802,796      $250,522     $56,344     $ 17,785      24
11    CA16B300004              Harvest House       $   15,525   $ 19,259       $            -    $ 34,784        $ 152,357      $      -     $     -     $ 34,784      100
12    CA16B500009              Harvest House       $   5,027    $   6,538      $            -    $ 11,565        $ 63,330       $      -     $     -     $ 11,565      100
                 Subtotal                          $   56,122   $ 135,880      $            -    $192,002        $ 1,634,888    $250,522     $56,344     $135,658      71
                     Total                         $ 263,519    $ 220,752      $          167    $484,438        $ 2,731,677    $329,871     $95,147     $389,291      80




10
  The match that was verified consisted of operations-related match only. In all three grants, the match that was verified was in excess of the 25 percent
operations match requirement.


                                                                                     26
     Appendix D

                          SCHEDULE OF UNSUPPORTED AND INELIGIBLE AMOUNTS

                                                                                                                                                  Unsupported
                                                                                                                       Percentage                                               Total
                                                                                          Authorized        Paid by                                  due to
     Grant number         Project                       Operating period                                                of unmet    Unsupported                  Ineligible   questioned
                                                                                           amount            HUD                                   duplicate
                                                                                                                         match                                                   cost
                                                                                                                                                  salary costs
                                                                       Passed through the Authority to the Foundation
1    CA16B400051       Athena Homes            December 1, 2005 - November 30, 2006       $ 250,000     $ 247,484         58        $   100,088   $     69,432   $ 5,487      $ 175,007
2    CA16B500040       Athena Homes            December 1, 2006 - November 30, 2007       $ 250,000     $ 144,162         59        $    62,675   $     37,933    $     -     $ 100,608
3    CA16B300010    Denker Consolidated         November 1, 2004 - October 31, 2006       $ 300,205     $ 299,683         100       $   299,683   $          -    $     -     $ 299,683
4    CA16B500004    Denker Consolidated         November 1, 2006 - October 31, 2007       $ 150,102     $     97,225      100       $    97,225   $          -    $     -     $   97,225
5    CA16B500005    Garden Villas Homes        October 1, 2006 - September 30, 2007       $ 128,963     $     98,908      100       $    98,908   $          -    $     -     $   98,908
6    CA16B400008     Harbor Gateways           October 1, 2005 - September 30, 2006       $ 135,413     $ 135,013         100       $   135,013   $          -    $     -     $ 135,013
7    CA16B500002     Harbor Gateways           October 1, 2006 - September 30, 2007       $ 135,413     $ 100,244         100       $   100,244   $          -    $     -     $ 100,244
8    CA16B300114    Van Nuys Apartments         January 1, 2006 - December 31, 2008       $ 228,179     $ 104,656         100       $   104,656   $          -    $     -     $ 104,656
                                    Subtotal                                              $1,578,275    $1,227,375        87        $   998,492   $    107,365   $ 5,487      $1,111,344
                                                                                   Direct grants to the Foundation
9    CA16B960017    Cedar Street Homes              July 1, 2005 - June 30, 2006          $ 743,737     $ 737,591         100       $   737,591   $          -    $     -     $ 737,591
10   CA16B500035    Cedar Street Homes              July 1, 2006 - June 30, 2007          $ 337,590     $ 337,590         24        $    81,022   $          -    $     -     $   81,022
11   CA16B300004       Harvest House           December 1, 2004 - November 30, 2006       $ 146,091     $ 146,091         100       $   146,091   $          -    $     -     $ 146,091
12   CA16B500009       Harvest House           December 1, 2006 - November 30, 2007        $ 73,047     $     48,576      100       $    48,576   $          -    $     -     $   48,576
                                    Subtotal                                              $1,300,465    $1,269,848        71        $ 1,013,280   $          -    $     -     $1,013,280
                                     Total                                                $2,878,740    $2,497,223        80        $ 2,011,772   $    107,365   $ 5,487      $2,124,624




                                                                                                27
Appendix E
                                       CRITERIA
A. Regulations at 24 [Code of Federal Regulations] 85.20(a)(2) state that fiscal control
   and accounting procedures of the state, as well as its subgrantees and cost-type
   contractors, must be sufficient to permit the tracing of funds to a level of expenditures
   adequate to establish that such funds have not been used in violation of the restrictions
   and prohibitions of applicable statutes. Paragraph (b)(2) states that the financial
   management system of grantees and subgrantees must meet the following standards:
   grantees and subgrantees must maintain records which adequately identify the source and
   application of funds provided for financially assisted activities.

B. Regulations at 24 [Code of Federal Regulations] 85.24(b)(6) state that costs counting
   toward satisfying a cost sharing or matching requirement must be verifiable from the
   records of grantees and subgrantees.

C. Regulations at 24 [Code of Federal Regulations] 85.40(a) state that grantees are
   responsible for managing the day-to-day operations of grant and subgrant activities.
   Grantees must monitor grant- and subgrant-supported activities to ensure compliance
   with applicable federal requirements and that performance goals are being achieved.
   Grantee monitoring must cover each program, function, or activity.

D. The 2005 Super Notice of Funding Availability, part III, subpart B, states that for all
   Supportive Housing Program funding for supportive services and homeless management
   information systems, a grantee must provide a 25 percent cash match. This means that of
   the total supportive services budget line item, no more than 80 percent may be from
   Supportive Housing Program grant funds. The cash source may be the grantee, other
   federal programs, state and local governments, or private resources. Documentation of
   the match requirements must be maintained in the grantee’s financial records on a grant-
   specific basis.

E. Regulations at 24 [Code of Federal Regulations] 574.500(b)(4) state that the
   responsibility for grant administration requires compliance with such other terms and
   conditions, including record keeping and reports for program monitoring and evaluation
   purposes, as HUD may establish for purposes of carrying out the program in an effective
   and efficient manner.

F. Office of Management and Budget Circular A-110, Uniform Administration
   Requirements for Grants and Agreements with Institutions of Higher Education,
   Hospitals, and Other Non-Profit Organizations, subpart C, section 23(a), states that
   all contributions, including cash and third party in-kind, shall be accepted as part of the
   recipient’s cost sharing or matching when such contributions meet all the following
   criteria:

       1. Are verifiable from the recipient’s records;



                                            28
   2. Are not included as contributions for any other federally assisted project or
      program;
   3. Are necessary and reasonable for proper and efficient accomplishment of project
      or program objectives;
   4. Are allowable under the applicable cost principles;
   5. Are not paid by the federal government under another award, except where
      authorized by federal statute to be used for cost sharing or matching;
   6. Are provided for in the approved budget when required by federal awarding
      agency; and
   7. Conform to other provisions of this Circular, as applicable.

Subpart C, section (20)(b), requires that a grant recipient’s financial management
system shall provide for the following:

   •   Accurate, current, and complete disclosure of the financial results of each
       federally sponsored project or program in accordance with the reporting
       requirements set forth in section C.52. If a federal reporting agency requires
       reporting on an accrual basis from a recipient that maintains its records on other
       than an accrual basis, the recipient shall not be required to establish an accrual
       accounting system. These recipients may develop such accrual data for its reports
       on the basis of an analysis of the documentation on hand.
   •   Records that identify adequately the source and application of funds for federally
       sponsored activities. These records shall contain information pertaining to federal
       awards, authorizations, obligations, unobligated balances, assets, outlays, income,
       and interest.
   •   Effective control over and accountability for all funds, property, and other assets.
       Recipients shall adequately safeguard all such assets and assure that they are used
       solely for authorized purposes.
   •   Comparison of outlays with budget amounts for each award. Whenever
       appropriate, financial information should be related to performance and unit cost
       data.
   •   Written procedures to minimize the time elapsing between the transfer of funds to
       the recipient from the U.S Treasury and the issuance or redemption of checks,
       warrants, or payments by other means for program purposes by the recipient.
   •   Written procedures for determining the reasonableness, allocability, and
       allowability of costs in accordance with the provisions of the applicable federal
       cost principles and the terms and conditions of the award.
   •   Accounting records including cost accounting records that are supported by
       source documentation.

F. Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
   Organizations, subpart A, section 4(a), states that a cost is allocable to a particular
   cost objective, such as a grant, contract, project, service, or other activity, in
   accordance with relative benefits received. An allocable cost to a federal award must
   be treated consistently with other costs incurred for the same purpose in like
   circumstances and


                                        29
1. If it is incurred specifically for the award,
2. Benefits both the award and other work and can be distributed in reasonable
   proportion to the benefits received, or
3. Is necessary to the overall operation of the organization, even if a direct
   relationship to any particular cost objective cannot be shown.




                               30
